BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM




            AUDIT OF
   BLACKBERRY AND CELL PHONE
       INTERNAL CONTROLS




   OFFICE OF INSPECTOR GENERAL



                                           March 2009
                                         March 31, 2009


Ms. Maureen Hannan, Director
Information Technology Division
Board of Governors of the Federal Reserve System
Washington, DC 20551

Dear Ms. Hannan:

      The Office of Inspector General (OIG) of the Board of Governors of the Federal Reserve
System (Board) has completed an audit of the Division of Information Technology (IT)
procedures, entitled Board of Governors of the Federal Reserve System BlackBerry and Cell
Phone Procedures and Inventory Control Process, issued June 20, 2008. These procedures were
created to strengthen controls for managing and accounting for cell phones and BlackBerrys
throughout the Board. In June 2008, the IT division requested that the OIG conduct an audit of
the recently issued procedures.


Background

      The Board provides cell phones and BlackBerrys to certain employees for business
purposes, to facilitate communication when employees are away from their desks, such as in
meetings, on travel, or in training. The BlackBerry extends the Board's data and applications,
including email, personal information management, and document management, to mobile users.

      The Voice Communications section of the IT division is responsible for establishing,
monitoring, and maintaining contracts with the service providers of cell phones and BlackBerrys.
Specifically, the Voice Communications staff, in conjunction with the Lotus Notes Support
Group, performs the following management-related services for cell phones and BlackBerrys:
(1) placing orders for devices and service-related requests with four service providers, (2) issuing
cell phone and BlackBerry equipment to Board employees, (3) conducting periodic physical
inventories, (4) reviewing and approving payment for monthly bills, and (5) coordinating with
the National Security Agency (NSA) for the disposal of the devices. IT also maintains a Secure
Inventory Closet (SIC) to store cell phones and BlackBerrys that have been ordered but not yet
assigned to an employee or that have been returned and are awaiting disposal.
Ms. Maureen Hannan                        2 of 11                              March 31, 2009


Objective, Scope, and Methodology

       Our audit objective was to evaluate the effectiveness of the Board’s recently revised
BlackBerry and cell phone procedures. Specifically, we evaluated the controls over the
receiving, tracking, securing, and disposing of BlackBerrys and cell phones. As of October
2008, approximately 1,123 BlackBerrys and cell phones were in use by Board employees.
During calendar year 2008, the Board paid $669,807 to four vendors for services related to such
devices. To accomplish our objectives, we identified and examined the policies and procedures
governing the receiving, tracking, securing, and disposing of BlackBerrys and cell phones,
including the inventory control process; and met with cognizant IT staff responsible for these
devices. We reviewed documentation for a judgmental sample of fourteen requests for devices
to ensure they were made by authorized division personnel. We also performed tests to ensure
that the devices were properly secured by evaluating the physical controls over access to devices
that are stored in the SIC. We compared a random sample of seventy-five out of 426 entries
from the “Badge Access” log to the SIC transaction log to ensure that all entries to the SIC were
recorded.

      To determine whether the tracking systems are accurate and complete, we counted
BlackBerrys and cell phones stored in the SIC and compared our count (ninety) to the number of
devices listed in the Inventory Control Equipment (equipment) database. We randomly selected
seventeen of ninety in-stock BlackBerrys and cell phones and traced descriptive information,
such as make, model, and serial number, to the equipment database. To ensure that the devices
are returned when employees leave the Board and that the equipment database is updated
appropriately, we compared a list of separated employees from the Board’s personnel database
for the period of February 1 through September 30, 2008 with the devices listed as assigned in
the equipment database. To ensure proper disposal of the devices, we reviewed and verified a
one month period of disposal forms to determine if they were completed in accordance with
established procedures, including signatures by IT and NSA personnel. We also selected and
verified that a random sample of eleven of 213 devices, listed on an inventory sheet attached to
the July 2008 disposal form, were moved from the assigned status to disposed status in the
equipment database.

      We conducted this performance audit from July 2008 through January 2009, in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.


Results

      Overall, we found that the IT division has established a number of controls for cell phones
and BlackBerrys, and that the majority of these controls are working effectively. Our testing did
not identify any significant discrepancies. The documentation we reviewed was sufficient to
verify that (1) requests for devices are made by authorized division staff; (2) new orders for
Ms. Maureen Hannan                         3 of 11                              March 31, 2009


devices are received at the Board and can be tracked to an authorized end user; (3) devices stored
temporarily or as “in-stock” devices are protected from unauthorized use and can be reconciled
with inventory records; and (4) devices targeted for disposal are properly tracked.

       Our fieldwork did, however, identify opportunities to improve existing controls used to
manage and account for devices. Specifically, we found that all entries to the SIC are not
recorded in the SIC transaction log, and that a surveillance camera positioned outside the SIC
and used to provide security for the SIC does not capture the device-related activities occurring
within the SIC. In addition, duties are not properly segregated which increases the risk of loss,
theft, or unauthorized use of devices; IT staff responsible for storing and removing devices from
the SIC were also recording the transactions to the equipment database. We also found that the
IT division has not communicated to all divisions the need to make a timely return of devices or
coordinated with the Management Division (MGT) to receive notification of employees
separating from the Board.

      Our report contains three recommendations designed to address these issues, which we
believe will help reduce the risk of loss, theft, or unauthorized use of devices. Based on the work
performed during the audit, we also provided IT management with updated flowcharts of the
processes for receiving, tracking, securing, and disposing of BlackBerrys and cell phones. Our
specific findings and the resulting three recommendations are discussed in detail in Appendix 1.

Analysis of Comments

       We provided our draft report to you for review and comment. In your response, included
as Appendix 2, you concurred with our assessment that opportunities exist to further strengthen
several controls, and agreed or partially agreed with each of our three recommendations. In your
detailed response to recommendation 1, you agreed that the SIC transaction log should be used to
record the transfer of BlackBerry and cell phone devices into and out of the SIC. However, you
added that the log is not intended to track when someone accesses the SIC to store or retrieve
low cost, consumable items, and that a reconciliation to the “Badge Access” log is not needed at
this time. We note that low cost, consumable items could be stored elsewhere, and that the SIC
may then be used to store BlackBerrys and cell phones exclusively. The intent of our
recommendation is to ensure that individuals who access the SIC also record their associated
activities or transactions—such as adding or removing devices and conducting inventories—in
the SIC transaction log, consistent with IT procedures. Periodically reconciling the SIC
transaction log with the “Badge Access” log also helps to ensure accountability and provides a
baseline should any devices be found missing.

      Your response also stated that it would not be efficient to expand the use of cameras to
record the actions by staff within the SIC, and that the camera in its current position achieves its
objective of deterrence and recording who accesses the SIC. During our review, we were told
that the IT Division plans to relocate the SIC to a larger area that could allow for a different
camera position to record the activities within the SIC. The intent of our recommendation is to
analyze how the camera position can be improved to more closely monitor BlackBerry and cell
phone devices stored in the SIC. We maintain that more effective camera placement can further
Ms. Maureen Hannan                       4 of 11                             March 31, 2009


strengthen controls by tracking and recording not only who is accessing the SIC, but also what
devices they are accessing.

     Your response indicated your general agreement with recommendation 2, noting that IT
currently addresses separation of duties for mobile devices by separating purchase authority from
administration authority. The intent of our recommendation is to separate duties within the
inventory control function. For the same reason that IT prohibits staff who purchase mobile
devices from having full access to the SIC inventory or the associated equipment database
records, staff who have access to the SIC, and are responsible for removing and distributing
devices, should not have full access rights to the equipment database.

      You agreed with recommendation 3 and stated you intend to develop processes to more
effectively identify devices that are not in use.

      Major contributors to this report were Mr. Kyle Brown, Senior Auditor and Project Leader;
Ms. Jennifer A. Rosholt, Auditor; Ms. Cynthia D. Gray, Project Manager; and Mr. Andrew
Patchan, Jr., Assistant Inspector General for Audits and Attestations. This report will be added
to our public web site and will be summarized in our next semiannual report to Congress. We
will follow-up on the implementation of the recommendations as part of our future audit
activities. We appreciate the cooperation of your staff during this review. Please contact me if
you would like to discuss this report or any related issues.

                                             Sincerely,

                                            /signed/

                                       Elizabeth A. Coleman
                                         Inspector General


cc:   Mr. Steve Malphrus
      Mr. Po Kim
      Ms. Sue Marcyz
      Mr. Peter Both
                                                                                    Appendix 1

Findings and Recommendations
1. We recommend that the Director of IT: (a) ensure that all entries to and transactions
   made in the Secure Inventory Closet (SIC) are recorded in the SIC transaction log,
   (b) perform a monthly reconciliation to the “Badge Access” log, and (c) analyze how the
   SIC security camera can be positioned to closely monitor IT personnel actions
   regarding devices stored in the SIC.

Overall, the IT division uses a comprehensive security system that includes locks, camera
surveillance, badge access pads, and manual and automated access logs to secure BlackBerrys
and cell phones. However, we found opportunities to improve existing controls by (1) recording
all entries to the SIC in the manual SIC transaction log, and (2) repositioning the SIC
surveillance camera to capture activities within the SIC. During our audit, we also found
weaknesses related to the design and format of the monthly automated “Badge Access” log,
which the IT division corrected after we brought these matters to their attention.

We found that BlackBerrys and cell phones are stored in their own locked cabinets within the
SIC. The SIC is secured by both lock and badge reader. In addition, a camera is located outside
the SIC door for surveillance. A SIC transaction log is used to manually record when devices are
added to or removed from the SIC and when inventories are conducted. The “Badge Access” log
electronically records who entered the SIC and at what time such entry occurred.

During our review of the SIC transaction log, we found that all entries into the SIC are not
manually recorded in the log, and that periodic reconciliations of the log to the monthly “Badge
Access” log are not performed. According to the procedures, the SIC transaction log should be
used to record the specific storage and removal of devices and to document the timing and
performance of periodic inventories. The “Badge Access” log, an automated historical log,
records who enters the SIC, and the date and time of entry. During our comparison of the
manually recorded entries in the SIC transaction log to the automated entries captured in the
“Badge Access” log, we found that fifteen of seventy-five entries captured by the “Badge
Access” log did not have corresponding manual entries in the SIC transaction log to detail what
actions were performed. Upon further inquiry of IT management, we found that the SIC is also
entered by Voice Communications staff to gain access to miscellaneous supplies (such as spare
batteries, holsters, and headsets). We were informed that entries for these purposes are not
required to be recorded in the SIC transaction log. To ensure that devices stored in or removed
from the SIC are properly controlled, we believe that all entries into the SIC should be recorded
and that the log should be reconciled to the monthly “Badge Access” log.

In addition to the SIC transaction log and the “Badge Access” log controls, a surveillance camera
is mounted outside the SIC door. We found that due to the size and structure of the SIC, the
camera is not positioned to capture device-related activities occurring within the SIC. We were
told that the IT Division has plans to relocate the SIC to a larger area that will allow for a
surveillance camera to capture device-related activities.


                                             5 of 11
During our audit, we also found weaknesses related to the design and format of the monthly
“Badge Access” log, which the IT division corrected after we brought these matters to their
attention. The “Badge Access” log is sent monthly by the Management Division (Technical
Security) to the Voice Communications manager for review. Our review found that the log was
not “locked” and that information could be altered or deleted by the reviewer. In addition, the
“Badge Access” log listed only the successful entries into the SIC, and did not record
unsuccessful attempts. We believe this occurred because information requirements, capabilities,
and report format options were not fully discussed between the IT and Management divisions.
During the course of our audit, the log was redesigned to capture successful and unsuccessful
entries into the SIC and reformatted by Technical Security at the Voice Communications
manager’s request so that the log could not be altered.

2. We recommend that the Director of IT ensure that individuals with responsibility
   for storing and removing devices from the SIC do not have full access to the equipment
   database.

The IT division has established several controls to ensure that BlackBerrys and cell phones are
adequately secured, properly tracked, and periodically inventoried. We found, however, that
there is no segregation of duties between individuals who have responsibility for storing and
removing devices from the SIC, and those with responsibility for recording entries in the
equipment database. Three individuals who have custody of BlackBerrys and cell phones also
have the ability to edit the equipment database. Segregation of duties is a fundamental, key
internal control to provide assurance that errors or irregularities are prevented or detected on a
timely basis by management. It requires that no single individual have control over two or more
phases of a tracking or inventory process. Such phases include authorization, custody, record-
keeping, and reconciliation. Although we did not identify any instances of impropriety, we
believe that responsibility for the physical custody and record-keeping of these devices should be
segregated to provide enhanced control and accountability.

During our fieldwork, IT staff used the equipment database (an Excel format) for tracking
BlackBerrys and cell phones.1 Specifically, IT staff tracks requests for devices, and records
devices that are (1) assigned to users, including loaners; (2) assigned to the SIC as in-stock; and
(3) designated for disposal. The equipment database has three types of user access levels: view,
read, and full access. View and read access allows users to view information inside the web
browser only, download information to a PC, and view off-line or in Excel. Full access allows
users to edit information. In addition, the IT division’s procedures require the BlackBerry and
cell phone managers to conduct a monthly verification of the in-stock devices by comparing each
device in the SIC to the equipment database.

The IT staff also uses the Board’s Mobile Data Devices Disposal Form For Mobile Devices to
document disposed devices. This form, which includes procedures for disposal, requires the
Board’s Voice Communications staff to periodically inventory devices that are designated for
disposal, close-out items from the inventory, and present an inventory list along with the devices
to the BlackBerry manager. The IT division has a written agreement with the NSA to dispose of
devices that are no longer used. The BlackBerry manager is responsible for verifying the
     1
         As of February 2, 2009, the IT division transitioned to a web-based database.

                                                      6 of 11
inventory, contacting NSA to coordinate the pick-up of devices, and ensuring that a record of
disposed items is kept on file.

During our review, we found that three individuals who have access to the locked cabinets
located within the SIC also have full access rights to the equipment database. IT management
indicated that these individuals were assigned custodial and record-keeping responsibilities
because they were the most appropriate individuals to (1) ensure accurate record-keeping, and
(2) notify IT management of any compliance issues. One of the keys to ensuring that a system of
internal controls is reasonably sufficient for preventing the loss or theft of inventory items is to
segregate responsibilities for maintaining custody of inventory from the record-keeping
responsibilities.

Although we found control weaknesses in the segregation of duties, our audit did not uncover
any unaccounted for devices due to these weaknesses. We counted BlackBerrys and cell phones
stored in the SIC and compared our total count (ninety) to the number of devices listed in the IT
division’s equipment database. We randomly selected a sample of seventeen (19 percent) of
ninety in-stock BlackBerrys and cell phones, and traced descriptive information, such as make,
model, and serial number to the equipment database. For devices that were disposed of, we
compared a sample of eleven (5 percent) of 213 devices disposed of during July 2008, as listed
on an inventory sheet attached to the Mobile Data Devices Disposal Form For Mobile Devices,
to information recorded in the equipment database. No exceptions were noted during any of
these tests.

Although we did not note any exceptions, we believe that IT management assumes a number of
risks when the responsibilities for custody and record-keeping are not properly segregated.
These risks can include the inability to locate, or correctly identify the status of all devices
during monthly inventories, and during periodic inventories of devices awaiting disposal.

3. We recommend that the Director of IT: (a) determine what additional procedures are
   needed to ensure the prompt return of devices that are no longer in use, such as when
   employees separate from the Board, and (b) coordinate efforts with MGT to receive
   notification of upcoming employee separations.
The IT Division’s BlackBerry and cell phone procedures are not sufficient to ensure that devices
are promptly returned to IT. Although we identified only one minor exception, we believe
controls should be strengthened to help reduce the risk of unauthorized use, as well as lessen the
likelihood of the Board incurring additional charges for BlackBerrys and cell phones.2

According to the IT Division’s procedures, an authorized division representative should return
all unused, replaced, or loaned devices to the Voice Communications staff along with a signed

      2
         One employee who was assigned a device separated from Board employment on August 31, 2008. Although
the employee turned in the device to the division representative on August 30, 2008, the division representative did
not return it to IT until November 10, 2008. IT contacted the vendor and requested that service be discontinued for
this device on November 18, 2008. The Board paid monthly recurring charges of $25.34 during October and
November.



                                                     7 of 11
copy of the sign-out sheet indicating the reason for returning the device. However, the
procedures do not specify a timeframe for the return of devices, particularly from a separated
employee. As a result, the potential exists for the device to be used for unauthorized purposes
and for the Board to incur unnecessary charges.

Communications can be improved between IT management and the divisions regarding the
timely return of devices that are no longer in use, and to ensure Voice Communications staff are
made aware of employees’ separation dates, or notified by the division’s authorized IT
representative or MGT’s human resources staff, of separation dates.

To ensure that devices are returned promptly, and that the Board does not incur any unnecessary
charges for devices no longer being used, it is important for all authorized division
representatives to communicate any separations to the Voice Communication staff as soon as
practical.




                                             8 of 11
                                                                                     Appendix 2
                      BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM
                             DIVISION OF INFORMATION TECHNOLOGY




DATE:      March 27, 2009
TO:        Ms. Elizabeth A. Coleman
FROM:      Maureen Hannan /signed/
SUBJECT:   Comments on the Office of Inspector General’s Audit of BlackBerry and Cell
           Phone Internal Controls

        Thank you for the opportunity to comment on the Office of the Inspector General’s
(OIG’s) audit of the Board’s BlackBerry and Cell Phone Internal Controls. We are pleased
that the audit did not identify any significant deficiencies and confirmed that the majority of
the controls in place are working effectively.

        Over the past year, we have enhanced our device provisioning and inventory control
processes and internal controls in response to self-assessment reviews and in conjunction with
the centralization of Blackberry support in the IT Division. We have been very pleased with
the enhancements implemented over the past year and the efficiency and effectiveness of our
services. While most of our internal controls are operating effectively, we concur with the
report’s assessment that opportunities exist to further strengthen several controls. We
generally agree with each of the recommendations offered by the audit team and provide a
more detailed response below:

        OIG Recommendation 1:
        We recommend that the Director of IT: (a) ensure that all entries to and
        transactions made in the Secure Inventory Closet (SIC) are recorded in the SIC
        transaction log, (b) perform a monthly reconciliation to the “Badge Access” log,
        and (c) analyze how the SIC security camera can be positioned to closely monitor
        IT personnel actions regarding devices stored in the SIC.

        IT Response to Recommendation 1:
        We partially agree with recommendation 1. The IT Division has implemented a
        number of controls in a layered fashion to prevent the loss of BlackBerry and Cell
        Phone devices. This includes the use of a badge reader to control access to the secure
        inventory closet, a camera to record all access to the closet, and the use of locked
        cabinets within the closet. The primary purpose of the SIC log is to track the transfer
        of BlackBerry and Cell Phone devices in and out of the secure inventory closet. The
        SIC log was not intended, however, to track when someone accesses the closet or the
        movement of low cost consumables. We generally agree with recommendation 1a that
        all transactions related to the transfer of BlackBerry and Cell Phone devices need to be

                                             9 of 11
recorded in the SIC transaction log. We do not agree, however, that individual
accesses to the closet or the movement of low cost consumables needs to be recorded
in the SIC transaction log. We do not agree with recommendation 1b that a
reconciliation process between the SIC log and the badge access log is needed at this
time. We do agree, however, that the SIC door badge access log review process can
be further formalized, including maintaining a signed copy of the reviewed log.

Regarding recommendation 1c, the use of a camera was originally intended to serve as
a deterrent and to provide a record of who accessed or attempted to access the closet.
We do not believe that it would be efficient to attempt to expand the use of cameras to
record the actions by authorized staff within the closet. We believe that the current
position of the camera is adequate and that the use of the camera achieves the original
objective. We will reconsider this recommendation, however, if we determine that the
existing controls and separations of duties are not effective in preventing losses.

OIG Recommendation 2:
We recommend that the Director of IT ensure that individuals with responsibility
for storing and removing devices from the Secure Inventory Closet do not have
full access to the equipment database.

IT Response to Recommendation 2:
We generally agree with recommendation 2. The IT Division currently addresses
separation of duties regarding mobile devices by separating the purchase authority
from the administrative authority. The IT Financial Management Analysts (ITFMAs)
are responsible for purchasing mobile devices while the Voice Communications
analysts are responsible for inventory control of those devices. ITFMAs are not
permitted access to the SIC and are not able to make changes in the inventory control
system (ICE). Voice Communications analysts in turn are not permitted to order
mobile devices. Furthermore, as we implement ICE we will continue to look for
opportunities to restrict individual access to minimum levels required for an
individual’s job function. Lastly, we intend to evaluate implementing additional
detective controls to help us more quickly identify misuse of devices. This may
include having the IT Financial Management unit perform a review of bills for
anomalous usage or having them periodically reconcile purchasing records with the
device inventory.

OIG Recommendation 3:
We recommend that the Director of IT: (a) determine what additional
procedures are needed to ensure the prompt return of devices that are no longer,
in use, such as, when employees separate from the Board, and (b) coordinate
efforts with MGT to receive notification of upcoming employee separations.

IT Response to Recommendation 3:
We agree with recommendation 3 and intend to develop processes to more effectively
identify devices that are not in use. Moreover, we intend to strengthen coordination
with Division representatives to ensure that both employees and Division
representatives understand their responsibilities regarding the use and administration
                                   10 of 11
of mobile devices and to ensure the timely recovery of devices that are no longer in
use. Lastly, we intend to implement new processes to ensure that a mobile device is
deactivated on the same day an employee is separated from the Board.




                                   11 of 11
